Ti

mee  COCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

KANE COUNTY, UTAH, AND THE STATE OF UTAH,
Petitioners,
Vv.

UNITED STATES OF AMERICA,
SOUTHERN UTAH WILDERNESS ALLIANCE,
AND THE WILDERNESS SOCIETY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 4928 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of July, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
A ers aoes Konto. Q. ooo Qudiaw-h. Chk
My Comm. Exp. September 6, 2023

Notary Public Affiant 39989

 
